                     Closeout of OIG 90-3107   "SO-0l)
This case was received on January 5, 1990 from the p

                                      had submitted a proposal to
that program.
~x~erimental  Design and Methods section of the proposal were
copied more or less verbatim from a published paper.
The subject was asked to comment on this allegation. His reply
showed no comprehension of the issue. The institution was then
asked to conduct a preliminary inquiry.    They found that the
subject had not directly attempted to mislead, but that he did
not understand how to handle attributions and quotations. They
did not recommend a full investigation.   Since the subject had
left the institution, there was no occasion to impose a penalty
or ask that he be better instructed.
OIG agreed that the institution has done all that is required
under the circumstances. The total extent of the plagiarism is
not great, and it involves background material and broad research
objectives rather than specific research methods or results. The
inquiry has presumably helped the subject understand the
requirement to give proper credit to sources, and the case can
now be closed.




September 12, 1990
